AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
     BUREAU OF JUSTICE ASSISTANCE
  SECOND CHANCE ACT MENTORING GRANT
   AWARDED TO CATHOLIC CHARITIES OF
      KANSAS CITY-ST. JOSEPH, INC.
         KANSAS CITY, MISSOURI

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

       Audit Report GR-50-13-004
             November 2012
   AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
 BUREAU OF JUSTICE ASSISTANCE SECOND CHANCE
      ACT MENTORING GRANT AWARDED TO
CATHOLIC CHARITIES OF KANSAS CITY-ST. JOSEPH, INC.
            KANSAS CITY, MISSOURI

                     EXECUTIVE SUMMARY

      The U.S. Department of Justice, Office of the Inspector General,
Audit Division, has completed an audit of an Office of Justice Programs
(OJP), Bureau of Justice Assistance (BJA) Second Chance Act
Mentoring grant for $300,000 awarded to Catholic Charities of Kansas
City-St. Joseph, Inc. (Catholic Charities). Catholic Charities received
grant number 2010-CY-BX-0004 to assist ex-offenders with
reintegration into society. The program includes mentoring adult
offenders from incarceration to release and providing transitional
services to assist in the reintegration of offenders into the community.

       Catholic Charities has been providing social services in Kansas
City and the surrounding St. Joseph County, Missouri, area since 1879
with the establishment of orphanages. Today, Catholic Charities
provides a variety of community services, such as adoption services,
homeless prevention programs, and family counseling. In addition,
through its TurnAround Program (TAP), Catholic Charities provides
various services to ex-offenders upon release from prison. These
services include emergency assistance, case management, preparation
for re-entry into society, and mentoring. The Second Chance Act grant
specifically supplements the mentoring program at Catholic Charities
by providing funds for two mentor coordinators, one who works with
clients prior to release and another who works with the clients after
release.

      The objective of our audit was to review performance in the
following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and indirect costs;
(4) budget management and control; (5) local matching funds; (6)
property management; (7) program income; (8) federal financial
reports and progress reports; (9) grant requirements; (10) program
performance and accomplishments; and (11) monitoring of sub-
grantees and contractors. We determined that local match, program
income, and oversight of sub-grantees and contractors were not
applicable to this grant.
      As of January 31, 2012, the grantee had drawn down $159,073
and had recorded expenditures of $156,469 in its grant accounting
records. We examined Catholic Charities’ accounting records, required
financial and progress reports, and operating policies and procedures.
We identified several weaknesses in Catholic Charities’ internal
controls, accounting procedures, and reporting deficiencies. We tested
$25,717 of expenditures and as a result, we questioned $7,887 as
unallowable or unsupported expenses. Specifically, we found:

     •   Catholic Charities does not have written procedures for the
         accounting and oversight of the TAP checking account.

     •   The grantee did not track expenses related to bus passes
         purchased with grant funds, billed the grant for costs that
         should have been charged to a different grant, charged
         expenditures that were not included in the approved budget,
         and overcharged the grant related to indirect costs, which
         resulted in $2,300 in unsupported and $5,587 in unallowable
         costs.

     •   After accepting a revised indirect cost rate agreement, which
         changed the rate both going forward and retroactively,
         Catholic Charities did not correct the rate used for the prior
         8 months and did not make the appropriate adjustments to
         the accounting records.

     •   The grantee did not accurately report all the required metrics
         to OJP on its third progress report, which covered the second
         half of calendar year 2011. We found that 16 out of the
         46 metrics we tested were not traceable to the supporting
         documentation provided.

     •   Despite a goal of providing services to 40 ex-offenders in
         each of the 2 years of the grant, as of March 2012,
         17 months into the grant, it had only provided services to
         25 clients in total.

      Our report contains 7 recommendations to address the preceding
issues, which are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope,
and methodology are discussed in Appendix I of the report.




                                  - ii -
                           TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1
   Background.......................................................................... 1
   Our Audit Approach............................................................... 2

FINDINGS AND RECOMMENDATIONS ....................................... 4
   Accounting and Internal Controls ............................................ 4
   Accountable Property ............................................................ 6
   Grant Drawdowns ................................................................. 6
   Grant Expenditures ............................................................... 7
   Budget Management and Control ........................................... 11
   Grant Reporting ................................................................... 11
   Program Performance and Accomplishments ........................... 14
   Views of Responsible Officials ................................................ 15
   Recommendations ............................................................... 15

APPENDIX I:          OBJECTIVE, SCOPE, AND METHODOLOGY ....... 16

APPENDIX II:         SCHEDULE OF DOLLAR-RELATED FINDINGS ... 18

APPENDIX III: AUDITEE RESPONSE ...................................... 19

APPENDIX IV:          OFFICE OF JUSTICE PROGRAMS RESPONSE ... 22

APPENDIX V:          OFFICE OF THE INSPECTOR GENERAL
                     ANALYSIS AND SUMMARY OF ACTIONS
                     NECESSARY TO CLOSE THE REPORT .............. 25
                                  INTRODUCTION

      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of an Office of Justice Programs (OJP),
Bureau of Justice Assistance (BJA) Second Chance Act Mentoring grant
awarded to Catholic Charities of Kansas City-St. Joseph, Inc. (Catholic
Charities). Catholic Charities was awarded $300,000 under grant
number 2010-CY-BX-0004 to mentor and assist in the transitioning of adult
ex-offenders into society, including providing assistance and counseling from
incarceration to post-release.

     As shown in Table 1 below, Catholic Charities was awarded a total of
$300,000 to implement the grant program.

            TABLE 1. BUREAU OF JUSTICE ASSISTANCE GRANT
                   AWARDED TO CATHOLIC CHARITIES
                         AWARD         AWARD
                                        END        AWARD                            2
  AWARD NUMBER           START                                          OBJECTIVE
                                            1      AMOUNT
                          DATE         DATE
                                                                   To offer mentor and
                                                                 transitional services to
                                                                violent offenders nearing
                                                                release and post release
 2010-CY-BX-0004       10/01/2010 12/31/2012       $300,000
                                                                   in order to promote
                                                                 successful re-entry into
                                                                    society and reduce
                                                                        recidivism.
Source: Office of Justice Programs

Background

      OJP’s mission is to increase public safety and improve the
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices across America by providing grants
for the implementation of these crime-fighting strategies. To support this
mission, BJA provides leadership and assistance to local criminal justice
programs that improve and reinforce the nation’s criminal justice system
with goals to reduce and prevent crime, violence, and drug abuse and to
improve the way in which the criminal justice system functions.



      1
          This date includes a no-cost extension approved by OJP.

      2
          The objective was later amended to include non-violent offenders.
      Catholic Charities has been providing social services in Kansas City and
the surrounding St. Joseph County, Missouri, area since 1879 with the
establishment of orphanages. Catholic Charities, a non-profit organization
located in Kansas City, Missouri, provides a variety of community services,
such as adoption services, homeless prevention programs, family
counseling, and various services to ex-offenders upon release from prison. 3
Catholic Charities provides the general public with charitable work in the
following six overall categories: (1) children and youth, (2) food and
shelter, (3) family services, (4) health and disabilities, (5) community
outreach, and (6) senior services.

       Within the family services category is the TurnAround Program (TAP),
which receives grants and donations from various federal, state, local, and
individual sources. 4 The primary focus of TAP is to assist individuals recently
released from prison (referred to as clients) with re-integration into society,
emergency assistance, mentoring, and case management services. The
Second Chance Act Mentoring grant funds this program to assist with
identifying potential clients before release from prison and along with
individual, state, and other federal sources, provides funds for services and
assistance post-release. Specifically, the grant supplements the mentoring
program at Catholic Charities by providing funds for two mentor
coordinators, one who works with clients prior to release and another who
works with the clients after release.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide, the Code of
Federal Regulations, Office of Management and Budget (OMB) Circulars, and
the award documents. We tested the grantee’s:

       •   Accounting and Internal Controls to determine whether the
           grantee had sufficient accounting and internal controls in place for
           the processing and payment of funds and controls were adequate to
           safeguard grant funds and ensure compliance with the terms and
           conditions of the grant;



       3
         Catholic Charities does not limit its services based on faith. According to the
grantee, over 75 percent of those served are non-Catholics.
       4
       Other federal sources include the U.S. Department of Labor and the Federal
Emergency Management Agency.


                                            -2 -
     •   Grant Drawdowns to determine whether grant drawdowns were
         adequately supported in accordance with federal requirements;

     •   Grant Expenditures to determine the accuracy and allowability of
         costs charged to the grant;

     •   Budget Management and Control to examine the amounts
         budgeted and the actual costs for each approved cost category and
         determine if the grantee deviated from the approved budget, and if
         so, if the grantee received the necessary approval;

     •   Federal Financial Reports (FFR) and Progress Reports to
         determine whether the required reports were submitted on time
         and accurately reflected grant activity; and

     •   Accomplishment of Grant Requirements and Objectives to
         determine if the grantee met or is capable of meeting the grant’s
         objectives and whether the grantee collected data and developed
         performance measures to assess accomplishment of the intended
         objectives.

      We also performed limited work and confirmed that Catholic Charities
did not generate or receive program income, was not required to contribute
any local matching funds, and that funds were not awarded to sub-grantees
or contractors. We therefore performed no testing in these areas.




                                    -3 -
               FINDINGS AND RECOMMENDATIONS

      We determined that Catholic Charities is providing mentoring
      services. However, our audit revealed internal control and
      reporting deficiencies. We found that Catholic Charities did not
      track expenses related to bus passes purchased with grant
      funds, billed the grant for costs that should have been charged
      to a different grant, charged expenditures that were not
      included in the approved budget, and overcharged the grant
      related to indirect costs. As a result, we questioned $7,887 in
      unallowable and unsupported expenditures. In addition, the
      grantee may have difficulties fulfilling its goal of providing
      services to 80 ex-offenders by the end of the grant period.

      We performed audit work at Catholic Charities’ main office in
Kansas City, Missouri, where we obtained an understanding of the
accounting system and reviewed a sample of grant expenditures. We
reviewed the criteria governing grant activities, including the OJP Financial
Guide, relevant OMB Circulars, and the Code of Federal Regulations. In
addition, we reviewed grant documents, including the application, award,
budgets, and financial and progress reports. We also interviewed key
Catholic Charities personnel.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should ensure, among other things, the identification and accounting for
receipt and disposition of all funds, funds applied to each budget category
included in the approved award, expenditures governed by any special and
general provisions, and non-federal matching contributions.

       We reviewed Catholic Charities’ financial management system and its
policies and procedures to assess Catholic Charities’ risk of non-compliance
with laws, regulations, guidelines, and terms and conditions of the grant. To
further assess risk, we obtained an understanding of the reporting process,
examined various grant accounting records and reports prepared by Catholic
Charities, and interviewed Catholic Charities personnel regarding grant
expenditures. Our testing revealed internal control deficiencies that are
explained in more detail in the following sections.




                                     -4 -
Financial Management System

       The OJP Financial Guide requires grantees to establish and maintain a
system of accounting and internal controls that adequately identifies and
classifies grant costs. The system must include controls to ensure that funds
and other resources are used optimally and expenditures of funds are in
conformance with the general and special conditions applicable to the
recipient. Further, the OJP Financial Guide states that grantees should
establish and maintain program accounts that will enable, on an individual
basis, the separate identification and accounting of the receipt and
disposition of all funds and the application of all funds to each budget
category included within the approved award.

       We conducted a limited review of Catholic Charities’ financial
management system, which included interviewing personnel and observing
accounting activities and processes. The review indicated that the grantee
properly classified grant costs. In addition, the internal operating
procedures generally appeared adequate. However, we found that there
were no written procedures for the program checking account. Instead of
paying through the centralized accounting department, Catholic Charities
allows the TurnAround Program (TAP) to write checks from its own program
checking account for various purchases, such as meeting expenses, gift
cards, and office supplies. Catholic Charities does not have written
procedures regarding the proper accounting or internal controls for this
account. We also found that the supporting documentation for these
expenses did not show evidence of supervisory review. Because this
account is regularly used, we believe that Catholic Charities should update
its written procedures to ensure proper accounting and internal control
procedures.

Audit

      According to the special conditions of the agreement, the OJP Financial
Guide, and OMB Circular A-133, any organization that expends $500,000 or
more in federal funds in the organization’s fiscal year is required to have a
single organization-wide audit conducted. As shown in Table 2, Catholic
Charities’ expenditures of federal funds exceeded $500,000 in fiscal
years (FY) 2008, 2009, and 2010.5




        5
            Catholic Charities’ fiscal year is from July 1 to June 30.


                                                -5 -
                     TABLE 2. CATHOLIC CHARITIES
                   EXPENDITURES OF FEDERAL FUNDS
                   FISCAL YEARS 2008 THROUGH 2010
              FISCAL YEAR             2008            2009         2010
              Total Federal
                                   $2,394,458       $3,514,294   $3,620,423
              Expenditures
        Source: Catholic Charities’ Single Audits

      Catholic Charities has had a Single Audit conducted by an independent
accounting firm for the previous 3 fiscal years in accordance with the
provisions of OMB Circular A-133. We reviewed the independent auditors’
assessments, which disclosed no weaknesses, noncompliance issues, or
cross-cutting findings related to Catholic Charities’ grant management.

Accountable Property

      The OJP Financial Guide requires accountable property purchased with
grant funds be so identified in the grantee’s official inventory. Catholic
Charities requires any item in excess of $1,000 to be listed on its
accountable property inventory. Catholic Charities’ actual expenditures for
equipment totaled $2,439 for two computers. We received documentation
that the property is listed in its official records as having been purchased
with DOJ funds.

Grant Drawdowns

      We reviewed Catholic Charities’ process for requesting reimbursement
from OJP for its grant-related costs to ensure that the requests were
adequately supported by official accounting records and were in accordance
with federal requirements. The Catholic Charities’ Grant Accountant stated
that drawdowns were based on actual expenditures. However, through our
analysis of actual drawdowns and Catholic Charities’ accounting records as
shown in Table 3, we determined that after August 2011 drawdowns were
based on estimated costs, not actual expenditures. While Catholic Charities
originally calculated its drawdowns based on actual expenditures, in
September 2011 it started to draw down funds based on an estimate of what
was spent during the past month. The Accounting Manager informed us that
the monthly process to close the books can take up to 3 weeks and drawing
down funds using estimated expenditures helped to better match the timing
of the reimbursement to the timing of the expense. Otherwise, an
expenditure might not get reimbursed for up to 7 weeks, causing financial
stress on the organization.




                                         -6 -
                TABLE 3. COMPARISON OF DRAWDOWNS TO
              CATHOLIC CHARITIES’ RECORD OF EXPENDITURES
                                        GRANT
               DRAWDOWN              EXPENDITURES             CUMULATIVE   CUMULATIVE
  DATE OF      PERIOD PER   AMOUNT       PER      CUMULATIVE EXPENDITURES DRAWDOWNS
 DRAWDOWN       CATHOLIC  DRAWN DOWN ACCOUNTING DRAWDOWNS PER CATHOLIC        LESS
  PER OJP      CHARITIES’   PER OJP  RECORDS FOR   PER OJP    CHARITIES’   CUMULATIVE
                RECORDS               DRAWDOWN                 RECORDS    EXPENDITURES
                                               PERIOD
 01/21/2011       11/2010      $5,712          $5,712        $5,712         $5,712              $0
 01/25/2011       12/2010       7,532           7,532        13,244         13,244               0
 03/01/2011       01/2011       7,768           7,768        21,012         21,012               0
 03/16/2011       02/2011       7,699           7,699        28,711         28,711               0
 05/02/2011       03/2011       9,453           9,453        38,164         38,164               0
 05/24/2011       04/2011       7,843           7,843        46,007         46,007               0
 07/01/2011       05/2011       7,790           7,790        53,797         53,797               0
 07/21/2011       06/2011       9,622           9,622        63,419         63,419               0
 08/19/2011       07/2011      10,434          10,434        73,853         73,853               0
 09/22/2011       08/2011      12,400          12,400        86,253         86,253               0
 09/22/2011       09/2011      13,000           9,754        99,253         96,007           3,246
 10/19/2011                     6,000                       105,253                         (3,280)
                  10/2011                      12,526                      108,533
 11/17/2011                     3,280                       108,533                              0
 11/17/2011                    12,600                       121,133                         (4,563)
                  11/2011                      17,163                      125,696
 12/01/2011                     6,240                       127,373                          1,677
 12/15/2011       12/2011      15,900         15,813        143,273       141,509            1,764
 01/19/2012       01/2012      15,800         14,960        159,073       156,469            2,604
     TOTAL                   $159,073       $156,469       $159,073      $156,469 6
Source: Office of Justice Programs and Catholic Charities of Kansas City-St. Joseph, Inc.


      The OJP Financial Guide states that grantees should only draw down
funds already spent, or funds that will be spent within 10 days of the
drawdown. In the instances where Catholic Charities used an estimated
amount and the drawdown was greater than the actual expenditures, we
confirmed that the overage was less than 10 subsequent days’ worth of
expenses incurred. Therefore, we have not questioned costs or made a
recommendation in this area.

Grant Expenditures

      The OJP Financial Guide requires that expenditures be accounted for
and adequately supported. Catholic Charities’ approved grant budget is
detailed in Table 4.




       6
         The difference of $2,604 in the amount drawn down compared to the cumulative
expenditures is due to Catholic Charities’ policy of estimating drawdowns.


                                                -7 -
                  TABLE 4. CATHOLIC CHARITIES’
     APPROVED GRANT BUDGET AMOUNTS AND DESCRIPTION OF COSTS
                        APPROVED
                         REVISED
   COST CATEGORY         BUDGET             DESCRIPTION OF PLANNED EXPENDITURES


      Personnel          $136,620    Salary for the hiring of two mentor coordinators

    Fringe Benefits       39,908     Standard fringe benefits

        Travel             9,120     Travel to prisons for mentor coordinators

       Supplies            4,228     Two computers and training materials
                                                                             7
 Contract/Consultant      76,800     Cost of assistance to program clients

        Other             13,436     Office occupancy and mentor coordinators’ costs

      Equipment              0       None planned

     Construction            0       None planned

    Indirect Costs        19,888     Overall organizational costs not specific to the grant
   FEDERAL FUNDS        $300,000

    LOCAL MATCH             $0
  TOTAL PROJECT
      COSTS             $300,000
Source: Office of Justice Programs and Catholic Charities of Kansas City-St. Joseph, Inc.

      The majority of the budgeted expenditures were associated with the
hiring of two full time mentor coordinators and the assistance provided to
ex-offenders enrolled in the TAP upon release from prison. This assistance
primarily consists of bus passes and gift cards for food, gas, phone, and
general retailers. In addition, we found that TAP provides clients with
assistance on an ad-hoc basis for the costs of cell phones, rent, prescription
drugs, and the acquisition of government documents, such as social security
cards, birth certificates, or driver’s licenses.

Direct Expenditures

      We reviewed grant expenditures to determine if costs charged to the
award were allowable, supported, and properly allocated in compliance with
grant requirements. We obtained and reviewed the invoices and available
supporting documentation for 43 expenditures charged to the grant. These
transactions were judgmentally selected from Catholic Charities’ general

        7
         According to OJP, the Office of the Chief Financial Officer mandated that, for this
grant, assistance to program clients should be included in the Contract/Consultant category.


                                            -8 -
ledger. We tested expenditures associated with the program to determine
whether the costs were accurate, supported, allowable, and allocable to the
grant under federal rules, regulations, and guidelines. The selected
transactions totaled $25,717 of the total $156,469 in expenses billed to the
grant as of January 31, 2012. This included $6,560 in personnel and fringe
benefit charges and $19,157 in all other categories.

       We found $2,300 in unsupported and $5,587 in unallowable costs for
total dollar-related findings of $7,887, which are discussed below. 8

       •   Catholic Charities did not adequately account for $2,300 for 46 bus
           passes purchased with grant funds and we are questioning these as
           unsupported costs. Catholic Charities provided receipts for the
           purchase of 96 bus passes from November 2011 to February 2012
           for clients’ travel needs for a total of $4,800. However, when we
           attempted to trace the bus passes purchased to the client case files,
           we were unable to account for 46 passes costing $2,300.

       •   Gift cards totaling $1,325 were unallowable costs because they
           were supposed to be charged to a Department of Labor (DOL)
           grant. The gift cards were given to program clients for basic
           hygiene and living expenses. An official from Catholic Charities
           stated that the gift cards were charged to the DOJ grant in error.

       •   The grantee charged $796 in unallowable costs to the grant. These
           funds were used for airfare for a September 2011 trip to
           Washington, D.C., and the grantee acknowledged that the trip
           should have been charged to the DOL grant, but was incorrectly
           charged to the DOJ grant.

       •   Although the OJP-approved grant budget did not identify any
           approved costs for out-of-state travel, the grantee charged the
           grant $2,500 for airfare, hotel, and meal expenses for a
           February 2011 trip to Washington, D.C. According to the grantee
           and an OJP staff member, attendance at the conference was
           required by OJP. However, costs for this trip were not in the
           approved grant budget and the grantee did not request a Grant
           Adjustment Notice (GAN) to modify the budget.

       •   Although the OJP-approved grant budget did not identify any
           approved costs for construction, the grantee charged the grant

       8
         These questioned cost totals also include those associated with indirect costs, which
are discussed in the following section.


                                            -9 -
            $249 for renovations to office space to accommodate the program
            mentor coordinators. We have questioned these costs as
            unallowable.

Indirect Cost Rate

        We also found inconsistencies related to the indirect cost rate, which
resulted in an overcharge to the grant of $237.9 The initial rate was
7.1 percent of grant expenditures, according to the indirect cost rate
agreement dated February 5, 2010. A revised agreement, dated
April 27, 2011, changed the rate to 6.7 percent both going forward and
retroactively to July 1, 2010. Despite the new agreement, Catholic Charities
still calculated indirect costs using the higher rate until July 2011, and
Catholic Charities did not retroactively adjust the indirect costs charged to
the grant as of the conclusion of our fieldwork.

                      TABLE 5. INDIRECT COST RATE CHARGES10
    EXPENDITURE        EXPENDITURE           RATE            CORRECT
      MONTH               TOTAL              USED             RATE          DIFFERENCE
            11/2010        $5,333             7.1                6.7           $21
            12/2010        7,032              7.1                6.7           28
            01/2011        7,253              7.1                6.7           29
            02/2011        7,188              7.1                6.7           29
            03/2011        8,826              7.1                6.7           35
            04/2011        7,323              7.1                6.7           29
            05/2011        7,274              7.1                6.7           29
            06/2011        8,984              7.1                6.7           36
                                                            Total overage     $237
   Source: OIG analysis of Catholic Charities financial information

      In addition, as shown in Table 6, the indirect costs associated with the
aforementioned questioned costs total $480. We recommend that Catholic
Charities remedy the $717 in unallowable indirect cost overpayments.




       9
        The indirect cost rate is an additional charge used to cover general administrative
and organizational costs and is based on a percentage of direct grant expenditures.
       10
            Inconsistencies in the totals are due to rounding.


                                             - 10 -
   TABLE 6. INDIRECT COSTS ASSOCIATED WITH QUESTIONED COSTS 11
              TRANSACTION        TRANSACTION                          INDIRECT COST
                                                       RATE USED 12
                 DATE              AMOUNT                               CHARGED
                11/2011             $2,300                 6.7            $154
                01/2012             1,325                  6.7             89
                08/2011              796                   6.7             53
                02/2011             2,500                  7.1             168
                09/2011              249                   6.7             17
                          Total indirect costs - Questioned Costs         $480
            Source: Catholic Charities Financial Information

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. Requests for
transfers of funds between budget categories of over 10 percent must be
submitted to OJP for approval. Catholic Charities did not exceed the
10-percent threshold.

Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. Federal Financial Reports (FFR) provide
information on monies spent and the unobligated amounts remaining in the
grant. Program progress reports provide information on the status of grant-
funded activities and other pertinent information.

Federal Financial Reports

      The OJP Financial Guide states that financial reports filed after
October 1, 2009, are due within 30 days after the end of the calendar
quarter. We reviewed all five quarters for which a report was required and
determined that all required reports generally were submitted within the
required timeframe.

      We also reviewed all of the submitted FFRs for accuracy and found that
the reports accurately reflected the grant-funded expenditures as recorded
in the accounting records. As shown in the following table, project
       11
             Inconsistencies in the totals are due to rounding.
       12
          Although the rate used for the February 2011 expense for $2,500 is shown as
7.1 percent, we used the 6.7 percent in our calculation of questioned costs in this table
because we previously questioned, in Table 5, the difference in the 6.7 and 7.1 percent rates.


                                              - 11 -
expenditures began in the reporting period ending December 31, 2010, and
continued through and beyond the period ending December 31, 2011.

               TABLE 7. FEDERAL FINANCIAL REPORT ACCURACY 13
                                           GRANTEE
                       FFR PERIOD         QUARTERLY       EXPENDITURES
      FFR No.                                                                DIFFERENCE
                        END DATE           LEDGER           PER FFR
                                          EXPENSES

           1              12/31/2010        $13,244             $13,244             $0
           2              03/31/2011          24,920             24,920                0
           3              06/30/2011          25,255             25,255                0
           4              09/30/2011          32,589             32,589                0
           5              12/31/2011        $45,502             $45,502             $0
    Source: Office of Justice Programs and Catholic Charities

Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports are due semiannually on January 30 and July 30 for the life of the
grant. As shown in Table 8, we reviewed all three required reports and
found the first two reports were submitted in a timely manner. Progress
Report 3, for the period ending December 31, 2011, was re-submitted twice,
on February 28, 2012, and March 1, 2012, by Catholic Charities to
voluntarily correct report content. We consider the report to be submitted in
a timely manner even though the corrections came in after the due date.

                 TABLE 8. TIMELINESS OF PROGRESS REPORTS
     REPORT                                                       DATE           DAYS
      NO.            REPORT PERIOD            DUE DATE          SUBMITTED        LATE
           1       10/01/10 – 12/31/10       01/30/2011         01/25/2011         0
           2       01/01/11 – 06/30/11       07/30/2011         07/26/2011         0
           3       07/01/11 – 12/31/11       01/30/2012         01/30/2012         0
   Source: Office of Justice Programs and Catholic Charities

Reliability of Progress Report Data

     To test the reliability of progress report data, we reviewed the two
most recent progress reports. We found that despite significant efforts to
ensure correct reporting of the metrics, Catholic Charities misunderstood



      13
           Inconsistencies in the totals are due to rounding.


                                            - 12 -
questions, did not apply a consistent method to count clients, and simply
miscounted data.

      When preparing progress reports, the mentor coordinators updated an
electronic spreadsheet with the most recent information obtained from TAP
employees. Based on this electronic spreadsheet, the mentor coordinators
manually typed the information on separate lists in another electronic
document. The lists were then totaled to provide the totals for each
response required by the progress reports.

      We tested 15 out of the 108 questions from the progress report
submitted for the period ending December 31, 2011. We compared
46 distinct responses to the sources provided by Catholic Charities, namely
the spreadsheet and lists noted above. 14 We found 16 instances, or
35 percent, where the numbers in the progress report did not match either
the electronic document or the spreadsheet. According to a Catholic
Charities staff member, for this reporting period the report format was
changed by OJP, and this caused some confusion.

      Further analysis showed that the errors were also caused by the
Catholic Charities staff misunderstanding the questions, not answering the
questions in a consistent manner, or miscounting data. We believe that due
to the nature of the program, some of the questions were not clearly
answerable for the grantee. For instance, multiple questions asked for the
number of clients, and it was unclear whether Catholic Charities should
include individuals who were recruited while they were incarcerated but
subsequently failed to take part in the program after release.

       Catholic Charities also did not count clients in a consistent manner.
For instance, while the report covered the 6-month period of July 1, 2011,
through December 31, 2011, there were various questions that required
separate responses for the first 3 months and the last 3 months of the
reporting period. In some cases, Catholic Charities would count an
individual in the first 3 months and count them again in the second
3 months. In other instances, individuals were only counted once. Finally,
some errors were made by simply miscounting values from the electronic
files.

     When we asked a Catholic Charities official what type of supporting
documentation was used to answer the questions for the first two first
progress reports, she replied that there was none because the program did
       14
          Each question we examined had multiple parts. For instance, the questions
required responses broken down by time period or by release status. This resulted in a total
of 46 required responses within the 15 questions tested.


                                           - 13 -
not have many clients during those reporting periods. Instead, they
manually counted the values directly from the case files. As such, we did
not verify the accuracy of the first two progress reports. Considering that
the one progress report was still inaccurate after three attempts, we believe
that Catholic Charities should institute a process to ensure that the metrics
reported in the semi-annual progress reports are accurate.

Program Performance and Accomplishments

      According to the grant application, the purpose of the grant was to
increase public safety and reduce recidivism, and is based on the following
four objectives:

      •   Establish or improve the administration of mentoring programs,
          including the expansion of mentoring strategies and program
          design;

      •   Enhance and improve the organization capacity, system efficiency,
          and cost effectiveness of mentoring programs through training and
          technical assistance and other strategies;

      •   Improve outcomes for offenders in mentoring programs by
          establishing and strengthening collaborative community
          approaches; and

      •   Increase community support and funding for program sustainability
          and replication.

       With respect to the grant, the overall goal according to Catholic
Charities’ initial award documentation was to focus on 40 long-term, violent
offenders each year, or 80 total over the life of the grant. As of March 2,
2012, the second year of the grant, the grantee’s records indicate that there
were a total of 25 clients in the program who received mentoring services.
According to a Catholic Charities official, this low number of clients is due to
a number of factors. First, due to a delay in entering into agreements with
the Missouri Department of Corrections (MDOC), it took nearly 6 months to
send anyone into the prisons to start pre-release work. Second, many
qualified clients will not be released within the grant period. Catholic
Charities has taken some action to mitigate the effect of these issues. For
instance, in May 2011 it received approval for a GAN that expands the scope
of clients to include non-violent offenders, and the grantee is working with
MDOC to identify additional potential clients who meet this criteria. We
made the observation to Catholic Charities that it is not likely to fulfill its
goal of providing services to 80 ex-offenders by the end of the grant period.


                                     - 14 -
In response, an official from Catholic Charities stated that they requested
and were granted a no-cost extension for the grant, and the new grant end
date is December 31, 2012. We believe that OJP should monitor Catholic
Charities’ progress in attaining clients and ensure that the government
receives the benefits from the program as expected and funded.

Views of Responsible Officials

     We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference and have included their
comments as appropriate.

Recommendations

We recommend that OJP:

1. Ensure that the grantee creates written policies and procedures related to
   the administration and oversight of the TAP checking account.

2. Remedy the $2,300 in unsupported costs related to bus passes purchased
   with grant funds. 15

3. Remedy the $2,121 in unallowable questioned costs that were used for
   the gift cards and travel to Washington, D.C., in September 2010, both of
   which were supposed to be charged to the Department of Labor grant.

4. Remedy the $2,749 in unallowable costs related to the travel to
   Washington, D.C., in February 2011, and the office renovations.

5. Remedy the $717 overpayment of indirect costs due to the revised rate
   and indirect costs associated with questioned costs. 16

6. Ensure that Catholic Charities institutes a process to report accurate
   program data in its progress reports.

7. Monitor Catholic Charities’ progress in attaining clients and ensure that
   the grant objective of serving 80 clients is achieved.

       15
           The questioned costs shown here differ from the amounts shown in the draft report
following the grantee’s provision of additional supporting documentation and other
information.
       16
           The questioned costs shown here differ from the amounts shown in the draft report
following the grantee’s provision of additional supporting documentation and other
information.


                                           - 15 -
                                                                APPENDIX I


            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit concentrated on, but was not limited to, the inception of the
grant on September 15, 2010, through January 31, 2012. This was an audit
of grant number 2010-CY-BX-0004 awarded to Catholic Charities of
Kansas City-St. Joseph, Inc. (Catholic Charities), for $300,000. In
conducting our audit, we reviewed Federal Financial Reports and progress
reports and performed testing of grant expenditures, including reviewing
supporting accounting records. We judgmentally selected a sample of
expenditures, along with a review of internal controls and procedures for the
grant that we audited. Judgmental sampling design was applied to obtain
broad exposure to numerous facets of the grant reviewed, such as dollar
amounts, expenditure category, and risk. This non-statistical sample design
does not allow for projection of the test results to all grant expenditures or
internal controls and procedures. In total, the grantee had expended
$156,469 and drawn down $159,073 as of January 31, 2012. We originally
judgmentally selected 31 transactions, which included the 17 highest dollar
amounts that were not either payroll or identical to other transactions
selected. During our testing, we expanded our sample to include
43 transactions, which totaled $25,717, out of which we questioned $7,887.

      The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel and indirect costs; (4) budget
management and control; (5) property management; (6) federal financial
reports and progress reports; (7) grant requirements; and (8) program
performance and accomplishments. We determined that local matching
costs, program income, and the monitoring of sub-grantees and contractors
were not applicable to this grant.



                                    - 16 -
       We performed limited testing of source documents to assess the
timeliness and accuracy of FFRs, reimbursement requests, expenditures, and
progress reports; evaluated performance to grant objectives; and reviewed
the grant-related internal controls over the financial management system.
We tested invoices as of January 31, 2012. However, we did not test the
reliability of the financial management system as a whole and reliance on
computer-based data was not significant to our objective. We reviewed the
grantee’s Single Audit Report, which was prepared under the provisions of
Office of Management and Budget Circular A-133. We reviewed the
independent auditor’s assessments, which disclosed no weaknesses or
noncompliance issues directly related to Catholic Charities.




                                  - 17 -
                                                               APPENDIX II


          SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                  AMOUNT       PAGE



Unsupported Bus Passes                                $2,300        9

Unallowable Gift Cards                                 1,325        9

Unallowable air fare to Washington D.C. in               796        9
September 2010

Unallowable costs for February trip to                 2,500        9
Washington D.C. in February 2011

Unallowable costs for office renovations                 249        9

Unallowable indirect cost rate charges                   717       10


Total Questioned Costs                               $7,887

TOTAL DOLLAR-RELATED FINDINGS                        $7,887




Questioned Costs are expenditures that do not comply with legal, regulatory,
or contractual requirements; are not supported by adequate documentation
at the time of the audit; or are unnecessary or unreasonable.




                                    - 18 -
                                                                                                               APPENDIX III
                                              AUDITEE RESPONSE


       Catholic
       Charities
OF KANSAS CITY - ST. JOSEPH, INC.


CARITAS CENTER

            October 3, 2012

           Carol S. Taraszka
           Regional Audit Manager
           Chicago Regional Audit Office
           Office of the Inspector General
           U.S. Department of Justice
           500 West Madison Street, Suite 1121
           Chicago, IL 60661-2590
           Electronic Mail and U.S. Mail

           Dear Ms. Taraszka:

          Thank you for the opportunity to respond to the draft audit report dated September 14, 2012 related to
          the Bureau of Justice Assistance Second Chance Act Mentoring Grant awarded to Catholic Charities of
          Kansas City-St. Joseph, Inc. (Catholic Charities) under grant number 2010-CY-BX-0004. Our responses
          to the seven recommendations are detailed below:

                1. Ensure that the grantee creates written policies and procedures related to the administration
                   and oversight of the Turnaround Program (TA) checking account.

                     Catholic Charities concurs with this recommendation, and has developed formal, written policies
                     and procedures governing the administration and oversight of the TA program checking account.
                     See Attachment 1.

                2. Remedy the $2500 in unsupported costs related to bus passes purchased with grant funds.

                     At the time of your audit, the accounting records reflected costs for 96 bus passes, but
                     supporting documentation in the field could be located for only 46 bus passes, resulting in your
                     finding of unsupported costs for 50 bus passes. Subsequent to the audit, Catholic Charities has
                     located support for 4 additional bus passes, reducing the unsupported cost total by $200. The
                     Mid America Assistance Coalition (the tracking entity for these expenses) was undergoing a
                     system conversion during the timeframe of this audit, and some records are irretrievable.
                     Therefore, Catholic Charities will concur with the finding for $2300. See Attachment 2 for
                     supporting documentation of 50 bus passes issued.

                     New procedures have been developed to improve controls over purchased bus passes. Now,
                     the number of each bus pass is recorded in a journal with the name of the recipient and the case
                     manager's signature, and a copy of the pass is filed with the journal.




                      20 West 9th Street, Suite 600, Kansas City, Missouri 64105 • 816.221.4377 · • catholiccharities-kcsj.org
                                         Member - Catholic Charities USA, United Way of Greater Kansas City



                                                                    - 19 -
3. Remedy the $2121in unallowable questioned costs that were used for the gift cards and travel to
   Washington, D.C. in September 2010, both of which were supposed to be charged to the
   Department of Labor grant.

     Catholic Charities concurs with the $796 of travel costs charged to the incorrect grant in error.
     Correction has been made in the accounting system and greater care will be exercised in
     reviewing coding in the future.

     Catholic Charities does not concur that $1325 paid for gift cards is unallowable under the
     grant. The grant budget allows for $20,800 of expenditures related to "Transportation, Medical
     and Other". These gift cards represent "supportive services" as noted in the Program Strategic
     Plan & Timeline, page 4 (Attachment 3) and are included in the Contract Budget Worksheet,
     page 2, Section H Other as "Specific Client Assistance Funds" (Attachment 4).

4.   Remedy the $2749 in unallowable costs related to the travel to Washington, D.C. in February
     2011and the office renovations.

     Catholic Charities concurs with the finding related to $249 of office renovation cost. A correction
     will be made by reducing the September 2012 request for reimbursement, and will be reflected in
     the Quarterly Report totals as well.

     Catholic Charities does not concur with the finding that $2500 for travel to Washington, D.C. for
     a mandatory meeting represented unallowable costs. The DOJ Project Manager has advised us
     on how to complete a grant adjustment notice (GAN) in order for these expenses to be
     specifically included in the contract. This GAN request has been submitted in the amount of
     $2,644.

5. Remedy the $749 overpayment of indirect costs due to the revised rate and indirect costs
   associated with questioned costs.

     Catholic Charities concurs with the finding regarding incorrect calculation of indirect costs, but
     notes that the amount will change depending upon the final determination of items 2, 3 and 4,
     above. We will promptly correct the amount charged to the grant once this report is final.

6. Ensure that Catholic Charities institutes a process to report accurate program data in its
   progress reports.

     Catholic Charities concurs with this recommendation and has taken steps to improve controls
     over reporting including hiring a replacement Mentor Coordinator and using a spreadsheet to
     track program data which the Assistant Director monitors and reviews weekly.

7. Monitor Catholic Charities' progress in attaining clients and ensure that the grant objective of
   serving 80 clients is achieved.

     Catholic Charities concurs with this recommendation. The agency has resolved a personnel
     issue by hiring a new mentor coordinator to serve clients through this grant. In addition, a new
     Assistant Director for the Turnaround program has been hired and is working with the mentor




                                                 - 20 -
coordinators regarding setting recruitment goals and formalizing recruitment efforts for
mentees as well as mentors.

Again, we appreciate the opportunity to respond to the draft audit report and look forward to
completing the next steps for resolution.

Sincerely,




Michael W. Halterman Chief
Executive Officer
mhalterman@ccharities.com

cc: Linda Taylor
    810 7th Street, N.W.
    Room TW8020
    Washington, D.C. 20531




                                                 - 21 -
                                                                                 APPENDIX IV

              OFFICE OF JUSTICE PROGRAMS RESPONSE


                                                    U.S. Department of Justice

                                                    Office of Justice Programs

                                                   Office of Audit, Assessment, and Management



                                                   Washington, D.C. 20531




October 12, 2012


MEMORANDUM TO:                 Carol S. Taraszka
                               Regional Audit Manager
                               Chicago Regional Audit Office
                               Office of the Inspector General

FROM:                          Maureen A. Henneberg
                               Director

SUBJECT:                       Response to the Draft Audit Report, Audit of the Office of Justice
                               Programs, Bureau of Justice Assistance, Second Chance Act
                               Mentoring Grant Awarded to Catholic Charities of Kansas City –
                               St. Joseph, Inc., Kansas City, Missouri

This memorandum is in response to your correspondence, dated September 12, 2012,
transmitting the subject draft audit report for Catholic Charities of Kansas City – St. Joseph, Inc.
(Catholic Charities). We consider the subject report resolved and request written acceptance of
this action from your office.

The draft audit report contains seven recommendations and $8,119 in questioned costs.
The following is the Office of Justice Programs’ (OJP) analysis of the draft audit report
recommendations. For ease of review, the recommendations are restated in bold and are
followed by our response.

1. We recommend that OJP ensure that Catholic Charities creates written policies and
   procedures related to the administration and oversight of the TurnAround Program
   checking account.

   OJP agrees with the recommendation. We will coordinate with Catholic Charities to obtain a
   copy of policies and procedures implemented to ensure adequate administration and
   oversight of the TurnAround Program checking account.


                                              - 22 -
2. We recommend that OJP remedy the $2,500 in unsupported costs related to bus passes
   purchased with grant funds.

   OJP agrees with the recommendation. We will coordinate with Catholic Charities to remedy
   the $2,500 in unsupported costs, related to bus passes purchased with grant funds. If
   adequate documentation cannot be provided, we will request that Catholic Charities return
   the funds to the U.S. Department of Justice (DOJ), adjust their accounting records to remove
   the costs, and submit a revised Federal Financial Report (FFR) for grant number
   2010-CY-BX-0004.

3. We recommend that OJP remedy the $2,121 in unallowable questioned costs that were
   used for the gift cards and travel to Washington, D.C., in September 2010, both of
   which were supposed to be charged to the Department of Labor grant.

   OJP agrees with the recommendation. We will coordinate with Catholic Charities to remedy
   the $2,121 in questioned costs, related to gift cards and travel to Washington, D.C., in
   September 2010, both of which were supposed to be charged to the Department of Labor
   grant. If adequate documentation cannot be provided, we will request that Catholic Charities
   return the funds to the DOJ, adjust their accounting records to remove the costs, and submit a
   revised FFR for grant number 2010-CY-BX-0004.

4. We recommend that OJP remedy the $2,749 in unallowable costs related to the travel to
   Washington, D.C., in February 2011, and the office renovations.

   OJP agrees with the recommendation. We will coordinate with Catholic Charities to remedy
   the $2,749 in questioned costs, related to the travel to Washington, D.C., in February 2011,
   and the office renovations. If adequate documentation cannot be provided, we will request
   that Catholic Charities return the funds to the DOJ, adjust their accounting records to remove
   the costs, and submit a revised FFR for grant number 2010-CY-BX-0004.

5. We recommend that OJP remedy the $749 overpayment of indirect costs due to the
   revised rate and indirect costs associated with questioned costs.

   OJP agrees with the recommendation. We will coordinate with Catholic Charities to remedy
   the $749 overpayment of indirect costs. If adequate documentation cannot be provided, we
   will request that Catholic Charities return the funds to the DOJ, adjust their accounting
   records to remove the costs, and submit a revised final FFR for grant number
   2010-CY-BX-0004.

6. We recommend that OJP ensure that Catholic Charities institutes a process to report
   accurate program data in its progress reports.

   OJP agrees with the recommendation. We will coordinate with Catholic Charities to obtain a
   copy of procedures implemented to report accurate data in its progress reports.




                                            - 23 -
7. We recommend that OJP monitor Catholic Charities’ progress in attaining clients and
   ensure that the grant objective of serving 80 clients is achieved.

      OJP agrees with the recommendation. We will monitor Catholic Charities’ progress towards
      achieving the grant objective of serving 80 clients.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:      Jeffery A. Haley
         Deputy Director, Audit and Review Division
         Office of Audit, Assessment, and Management

         Tracey Trautman
         Acting Deputy Director for Programs
         Bureau of Justice Assistance

         Amanda LoCicero
         Audit Liaison
         Bureau of Justice Assistance

         Michael Bottner
         Grant Program Specialist
         Bureau of Justice Assistance

         Louise Duhamel, Ph.D.
         Acting Assistant Director, Audit Liaison Group
         Internal Review and Evaluation Office
         Justice Management Division

         OJP Executive Secretariat
         Control Number 20121526




                                               - 24 -
                                                                             APPENDIX V


                 OFFICE OF THE INSPECTOR GENERAL
                ANALYSIS AND SUMMARY OF ACTIONS
                  NECESSARY TO CLOSE THE REPORT

   The OIG provided a draft of this audit report to Catholic Charities of
Kansas City-St. Joseph, Inc. (Catholic Charities) and the Office of Justice
Programs (OJP). Catholic Charities’ response is incorporated in Appendix III
of this final report, and OJP’s response is incorporated as Appendix IV. 17
The following provides the OIG analysis of the responses and summary of
actions necessary to close the report.

Recommendation Number:

1.     Resolved. Both Catholic Charities and OJP concurred with our
       recommendation to ensure that Catholic Charities creates written
       policies and procedures related to the administration and oversight of
       the Turnaround Program (TAP) checking account. In its response,
       Catholic Charities provided a copy of the new written procedures for
       the TAP checking account. However, there was no indication if the
       procedures were incorporated into its Financial Risk and Management
       Manual or any other similar guidelines used by the organization. OJP
       stated in its response that it will coordinate with Catholic Charities to
       obtain a copy of policies and procedures implemented to correct the
       reported deficiency.

       This recommendation can be closed when we receive evidence that the
       procedures, once approved by OJP, are fully incorporated into the
       Catholic Charities’ administrative manuals, and we receive evidence
       that the new procedures have been distributed to staff.

2.     Resolved. OJP concurred with our original recommendation to
       remedy the $2,500 in unsupported costs related to bus passes
       purchased with grant funds. OJP stated in its response that it will
       coordinate with Catholic Charities to remedy the $2,500 in
       unsupported costs. OJP further stated that if adequate documentation
       cannot be provided, OJP will request that Catholic Charities return the
       funds to DOJ, adjust its accounting records, and submit a revised
       Federal Financial Report.

       However, in its response, Catholic Charities included support for
       4 additional bus passes totaling $200. Catholic Charities further stated

       17
          Catholic Charities’ response included attachments that are not included in our
report due to their technical nature.


                                           - 25 -
     that some records were irretrievable and, therefore, could only provide
     support for 50 of the 96 bus passes. As a result, Catholic Charities
     concurred with our recommendation to remedy the unsupported costs
     but in the revised amount of $2,300. After examining the records
     provided with the grantee’s response, we agree with the revised
     amount, and we are accepting the additional support provided. Our
     report and recommendation have been updated to reflect the new
     amount.

     This recommendation can be closed when we receive evidence that the
     remaining $2,300 in questioned costs has been appropriately
     remedied.

3.   Resolved. OJP concurred with our recommendation to remedy the
     $2,121 in unallowable questioned costs that were used for the gift
     cards and travel to Washington, D.C., in September 2010, both of
     which were supposed to be charged to the Department of Labor grant.
     OJP stated in its response that it will coordinate with Catholic Charities
     to remedy the $2,121 in questioned costs. OJP further stated that if
     adequate documentation cannot be provided, OJP will request that
     Catholic Charities return the funds to DOJ, adjust its accounting
     records, and submit a revised Federal Financial Report.

     In its response, Catholic Charities concurred with $796 of the $2,121
     in unallowable questioned costs that pertained to the travel costs.
     Catholic Charities stated that it did not concur with the $1,325 paid for
     gift cards. In its response, Catholic Charities stated that the grant
     budget allows for $20,800 of expenditures related to “Transportation,
     Medical and Other,” and that the gift cards represent “supportive
     services” as noted in various grant budget documents. During our
     audit, the supporting documentation for the $1,325 indicated that
     those expenditures were to be charged to a Department of Labor
     grant. Further, in a written document provided during our audit, a
     Catholic Charities accounting staff member confirmed this and stated
     that in March 2012 an entry was made to ensure the correct grant was
     charged.

     This recommendation can be closed when we receive evidence that the
     total $2,121 in questioned costs has been appropriately remedied.

4.   Resolved. OJP concurred with our recommendation to remedy the
     $2,749 in unallowable questioned costs related to the travel to
     Washington, D.C., in February 2011, and the office renovations. OJP
     stated in its response that it will coordinate with Catholic Charities to


                                    - 26 -
     remedy the $2,749 in unallowable questioned costs. OJP further
     stated that if adequate documentation cannot be provided, OJP will
     request that Catholic Charities return the funds to DOJ, adjust its
     accounting records, and submit a revised Federal Financial Report.

     In its response, Catholic Charities concurred with the portion of the
     questioned costs associated with the office renovations in the amount
     of $249. Catholic Charities stated that a correction will be made by
     reducing the September 2012 request for reimbursement. Catholic
     Charities also indicated that a Grant Adjustment Notice has been
     submitted for the remaining amount of questioned costs associated
     with the unallowable travel expenditures.

     This recommendation can be closed when we receive evidence that the
     $2,749 in questioned costs has been appropriately remedied.

5.   Resolved. Both Catholic Charities and OJP concurred with our original
     recommendation to remedy the $749 overpayment of indirect costs
     due to the revised rate and indirect costs associated with questioned
     costs. OJP stated in its response that it will coordinate with Catholic
     Charities to remedy the $749 in unallowable questioned costs. OJP
     further stated that if adequate documentation cannot be provided, OJP
     will request that Catholic Charities return the funds to DOJ, adjust its
     accounting records, and submit a revised Federal Financial Report.

     In its response, Catholic Charities agreed that it incorrectly calculated
     indirect costs. However, it further stated that the amount questioned
     may change based upon any changes to the questioned cost amounts
     in Recommendations 2, 3, and 4. As discussed in Recommendation 2,
     the grantee provided adequate supporting documentation for a portion
     of our questioned costs, reducing the questioned costs amount from
     $2,500 to $2,300. Based upon this and other information, we
     computed that the overpayment of indirect costs is now $717 instead
     of $749. Our report and recommendation have been updated to
     reflect the new amount.

     This recommendation can be closed when we receive evidence that the
     $717 in questioned costs has been appropriately remedied.

6.   Resolved. Both Catholic Charities and OJP concurred with our
     recommendation to ensure that Catholic Charities institutes a process
     to report accurate program data in its progress reports. OJP stated in
     its response that it will coordinate with Catholic Charities to obtain a
     copy of procedures implemented to correct this deficiency. In its


                                   - 27 -
     response, Catholic Charities stated that it has taken steps to improve
     controls over reporting, including hiring a replacement Mentor
     Coordinator and using a spreadsheet to track program data, which the
     Assistant Director monitors and reviews weekly.

     This recommendation can be closed when we receive a copy of the
     implemented procedures, once approved by OJP, that ensure Catholic
     Charities reports accurate data in its progress reports.

7.   Resolved. Both Catholic Charities and OJP concurred with our
     recommendation that OJP monitor Catholic Charities’ progress in
     attaining clients and ensure that the grant objective of serving
     80 clients is achieved. OJP stated in its response that it will monitor
     Catholic Charities’ progress towards achieving the grant objective. In
     its response, Catholic Charities stated that the agency has resolved a
     personnel issue by hiring a new mentor coordinator and Assistant
     Director for the TAP.

     This recommendation can be closed when we receive confirmation that
     OJP is monitoring Catholic Charities’ progress and evidence that
     80 clients are served over the life of the grant.




                                   - 28 -
